           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

        SINGLE AUDIT OF THE
         STATE OF MONTANA
       FOR THE 2-YEAR PERIOD
         ENDED JUNE 30, 2009


      October 2010   A-77-11-00001




 MANAGEMENT
ADVISORY REPORT
                                      Mis s ion
B y c onduc ting independent and objec tive audits , evaluations and
inves tigations , we ins pire public c onfidenc e in the integrity and s ec urity of
S S A’s programs and operations and protec t them agains t fraud, was te and
abus e. We provide timely, us eful and reliable information and advic e to
Adminis tration offic ials , C ongres s and the public .

                                     Authority
T he Ins pec tor G eneral Ac t c reated independent audit and inves tigative
units , c alled the Offic e of Ins pec tor G eneral (OIG ). T he mis s ion of the OIG ,
as s pelled out in the Ac t, is to:

   C onduc t and s upervis e independent and objec tive audits and
    inves tigations relating to agenc y programs and operations .
   P romote ec onomy, effec tivenes s , and effic ienc y within the agenc y.
   P revent and detec t fraud, was te, and abus e in agenc y programs and
    operations .
   R eview and make rec ommendations regarding exis ting and
    propos ed legis lation and regulations relating to agenc y programs
    and operations .
   K eep the agenc y head and the C ongres s fully and c urrently informed
    of problems in agenc y programs and operations .

  T o ens ure objec tivity, the IG Ac t empowers the IG with:

   Independenc e to determine what reviews to perform.
   Ac c es s to all information nec es s ary for the reviews .
   Authority to publis h findings and rec ommendations bas ed on the
    reviews .

                                       V is ion
W e s trive for c ontinual improvement in S S A’s programs , operations and
management by proac tively s eeking new ways to prevent and deter fraud,
was te and abus e. We c ommit to integrity and exc ellenc e by s upporting an
environment that provides a valuable public s ervic e while enc ouraging
employee development and retention and fos tering divers ity and
innovation.
                                      SOCIAL SECURITY
MEMORANDUM

Date:      October 21, 2010                                                  Refer To:

To:        Rebecca Tothero
           Acting Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the State of Montana for the 2-Year
           Period Ended June 30, 2009 (A-77-11-00001)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the State of Montana for the 2-year period ended June 30, 2009. Our objective
           was to report internal control weaknesses, noncompliance issues, and unallowable
           costs identified in the single audit to SSA for resolution action.

           The Montana Legislative Auditor performed the audit. The results of the desk review
           conducted by the Department of Health and Human Services (HHS) concluded that the
           audit met Federal requirements. In reporting the results of the single audit, we relied
           entirely on the internal control and compliance work performed by the Montana
           Legislative Auditor and the reviews performed by HHS. We conducted our review in
           accordance with the Council of the Inspectors General on Integrity and Efficiency’s
           Quality Standards for Inspections.

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The Montana Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal
           regulations. The DDS is reimbursed for 100 percent of allowable costs. The
           Department of Public Health and Human Services (DPHHS) is the DDS’ parent agency.
Page 2 – Rebecca Tothero


The single audit reported:

•   The Montana Department of Administration did not bill central service costs to State
    agencies in accordance with the relative benefit received, as required by Federal
    regulations (Attachment A, Page 1). The corrective action plan indicated that the
    Department would start billing agencies the amount approved in the Statewide Cost
    Allocation Plan (Attachment A, Page 4).

•   DPHHS did not have sufficient controls to ensure supervisory compliance with
    Federal cash management requirements (Attachment A, Page 2). The corrective
    action plan indicated that instruction manuals and training plans were being
    developed (Attachment A, Page 4).

•   DPHHS improperly charged settlement payments to terminated employees to
    various Federal programs (Attachment A, Page 3). The corrective action plan
    indicated that DPHHS drafted a policy that requires all settlement payments be paid
    with non-Federal funds. Further, the plan indicated that settlement payments made
    with Federal funds were corrected (Attachment A, Page 4).

We recommend that SSA:

1. Confirm that central service costs are billed to the Montana DDS in accordance with
   the Statewide Cost Allocation Plan.

2. Ensure that DPHHS developed sufficient controls for supervisory compliance with
   cash management requirements.

3. Verify that any SSA funds used for settlement payments to terminated employees
   were returned to SSA.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (816) 221-0315, extension 1537.




                                                Patrick P. O’Carroll, Jr.

Attachments
Attachment A
  Page 1 of 4
Attachment A
  Page 2 of 4
Attachment A
  Page 3 of 4
                                                                                      Attachment A
                                                                                        Page 4 of 4
                                                                          Person
                                                                                             Target
Finding #   CFDA #      CAP – Corrective Action Plan                    Responsible
                                                                                              Date
                                                                          for CAP
Finding     Various   The Department of Administration (DOA)           Patricia McNamee,    Completed
#2-1                  does not concur that the method used             Financial Manager,   October
                      resulted in a questioned cost. Since the         DOA                  2009
                      method used was approved by our federal
                      negotiator and did not result in overbilling
                      of the federal government, there should
                      not be a related questioned cost.
                      Beginning in FY 2010, the department will
                      bill agencies the amounts approved in the
                      Statewide Cost Allocation Plan.
Finding     Various   The Business and Financial Services              Marie Matthews,      3/31/2010
#2-15                 Division is in the process of developing         Business and
                      desk manuals for every position in the           Financial Services
                      division. These desk manuals will include        Administrator
                      monitoring and verification procedures to
                      facilitate timely error detection. In addition
                      to desk manuals training plans for each
                      position are being reviewed and updated.
                      The completion of these desk manuals and
                      strengthening of the divisions training
                      programs will allow the division to more
                      quickly respond to staff shortages and
                      maintain quality work products.
Finding     93.778    The department has drafted a policy              Marie Matthews,      Completed
#2-37       93.069    clarifying that all settlements must be paid     Business and
                      by non-federal funds. All settlements            Financial Services
                      identified during the audit have been            Administrator
                      corrected and the costs moved to the
                      general fund.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
